          Office of Inspector General




December 22, 2006

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

KATHLEEN AINSWORTH
ACTING VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT:       Audit Report – Data Integrity Review of Address Management System
               Facility Data (Report Number IS-AR-07-005)

This report presents the results of our data integrity review of the Address Management
System (AMS) facility data (Project Number 06BG009IS000). The objective of this audit
was to determine if the data the AMS supplies to the Facility Database (FDB) is
complete, accurate, and timely. Additionally, we evaluated whether controls in the FDB
are adequate to properly maintain facility data the AMS provides. Information
Technology management requested this audit.

Facility data extracted from the AMS is provided to the FDB on a timely basis.
However, the AMS database does not contain information for all U.S. Postal Service
facilities. While the AMS facility data we reviewed is generally accurate, personnel do
not always use FDB facility naming conventions when entering facility names into the
AMS. In addition, we identified a small number of facility locale and address
discrepancies for the organizations we reviewed. Additional guidance, training, and
input and validation controls — supplemented by an independent quality assurance
function — could enhance the reliability of the facility data.

We provided seven recommendations to management for strengthening controls over
facility data. We recommended that the Postal Service develop and distribute a clear
description of a facility and define the roles and responsibilities for all users who input,
maintain, and certify facility data. We also recommended forming an independent
quality assurance function to perform periodic validations of facility data; creating a
standard facility naming convention; and ensuring that only the standard facility naming
conventions are used when entering facility names into the AMS. Finally, we
recommended development and implementation of an enhanced training program for
entering and maintaining facility data, as well as performing a post implementation
review of the FDB system.
Recommendation 3 could improve safety and the physical security of facilities because
of improved accuracy and completeness of facility data, since the Postal Service relies
on the FDB data for security purposes. Recommendations 4, 5, and 7 could indirectly
improve customer service and maintain customer goodwill and reliance on the Postal
Service brand. We will report these non-monetary impacts in our Semiannual Report to
Congress.

Management agreed with our recommendations and non-monetary impacts related to
recommendations 4, 5, and 7 and has initiatives in progress and corrective actions
planned to address the issues in this report. Management did not comment on our non-
monetary impact associated with recommendation 3. Management’s comments and
our evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Gary Rippie,
Director, Information Systems, or me at (703) 248-2100.

   E-Signed by John Cihota
ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: Robert L. Otto
    Lee R. Heath III
    William A. Campbell
    George W. Wright
    Janice E. Caldwell
    Frederick J. Hintenach III
    Steven R. Phelps
Data Integrity Review of Address Management                           IS-AR-07-005
 System Facility Data


                                  TABLE OF CONTENTS

 Executive Summary                                                         i

 Part I

 Introduction                                                             1

     Background                                                           1
     Objective, Scope, and Methodology                                    2
     Prior Audit Coverage                                                 3

 Part II

 Audit Results                                                            5

     Reduction in Facility Data Discrepancies                             5

     Address Management System Facility Data Discrepancies                7

           Missing Facilities                                             7
           Locale Types                                                   9
           Facility Naming Conventions                                   10
           Address Discrepancies                                         11
           Facility Database Post Implementation Review                  11
           Improvements to Facility Database and Address Management      12
                System

     Recommendations                                                     12
     Management’s Comments                                               12
     Evaluation of Management’s Comments                                 15

 Appendix A. Facility Data Flow                                          16

 Appendix B. Management’s Comments                                       19




                                        Restricted Information
Data Integrity Review of Address Management                                        IS-AR-07-005
 System Facility Data


                                 EXECUTIVE SUMMARY
 Introduction                 This report presents the results of our data integrity audit of
                              the Address Management System (AMS) facility data. The
                              objective of this audit was to determine if the data AMS
                              supplies to the Facilities Database (FDB) is complete,
                              accurate, and timely. In addition, we evaluated whether
                              controls in the FDB are adequate to maintain facility data
                              provided by the AMS. Information Technology management
                              requested this audit.

 Results in Brief             Facility data extracted from the AMS is provided to the FDB
                              on a timely basis. However, the AMS database does not
                              contain all U.S. Postal Service facilities. While the AMS
                              facility data we reviewed is generally accurate, FDB facility
                              naming conventions are not always used when entering
                              facility names into the AMS. In addition, we identified a
                              small number of facility locale and address discrepancies for
                              the organizations we reviewed. Additional guidance,
                              training, and input and validation controls — supplemented
                              by an independent quality assurance function — could
                              enhance the reliability of the facility data.

 Summary of                   We provided seven recommendations to management for
 Recommendations              strengthening controls over facility data. We recommended
                              that the Postal Service develop and distribute a clear
                              description of a facility and define the roles and
                              responsibilities for all users who input, maintain, and certify
                              facility data.

                              We also recommended forming an independent quality
                              assurance function to perform periodic validations of facility
                              data; creating a standard facility naming convention; and
                              ensuring that only the standard facility naming conventions
                              are used when entering facility names into the AMS. In
                              addition, we recommended development and
                              implementation of an enhanced training program for
                              entering and maintaining facility data. These improvements
                              could indirectly enhance facility safety and security or
                              customer goodwill and the Postal Service brand.

                              Finally, we recommended completion of a post
                              implementation review for the FDB.




                                                   i
                                        Restricted Information
Data Integrity Review of Address Management                                         IS-AR-07-005
 System Facility Data




 Summary of                   Management agreed with the recommendations and has
 Management’s                 initiatives in progress and corrective actions planned to
 Comments                     address the issues in this report. Further, management
                              agreed with our non-monetary impacts related to
                              recommendations 4, 5, and 7 but did not comment on our
                              non-monetary impact associated with recommendation 3.
                              Management plans to publish a Management Instruction
                              and a Facility Database System User Guide (User Guide)
                              that will define “facility.” In addition, management will
                              ensure the Management Instruction clearly defines the roles
                              and responsibilities of all users who input, maintain, and
                              certify facility data.

                              Management has created a training program for FDB
                              coordinators and developed the User Guide to assist all
                              FDB users. The User Guide will serve as the primary
                              source of training and reference. In addition, AMS
                              Coordinators received FDB training in August 2006.
                              Furthermore, the FDB Advisory Committee will work to
                              develop a periodic validation of facility data in conjunction
                              with AMS Quality Reviews.

                              FDB and AMS management agreed to coordinate efforts to
                              create a naming convention policy for new facilities and to
                              implement a control to ensure personnel adhere to this
                              policy when putting information into the AMS.

                              Management will complete a post-implementation review by
                              June 2007. Management’s comments, in their entirety, are
                              included in Appendix B.

 Overall Evaluation of        Management’s actions taken or planned are responsive to
 Management’s                 the recommendations and should correct the issues
 Comments                     identified in the findings.




                                                   ii
                                        Restricted Information
Data Integrity Review of Address Management                                           IS-AR-07-005
 System Facility Data


                                       INTRODUCTION
 Background                   The current version of the Address Management System
                              (AMS) was established in 1994 and contains the U.S. Postal
                              Service’s master addressing database for all valid delivery
                              addresses in the U.S. Facility name, address, and contact
                              information for over 40,000 facilities is extracted each week
                              from the AMS to update the Facilities Database (FDB)
                              information, as needed.

                              The FDB was established in 2003 to serve as the single
                              source for facilities-related information, such as facility
                              identification, physical characteristics, addresses, hours of
                              operation, and products and services provided. Corporate
                              Customer Contact call centers use FDB data to provide
                              information on postal operations to mailers and the general
                              public; marketing personnel use FDB data to coordinate
                              marketing initiatives; and the Postal Inspection Service uses
                              FDB data to assist them in evaluating facility security. In
                              addition, the Postal Service uses the FDB for preparing for
                              and responding to emergencies and natural disasters.

                              The Manager, Address Management, in Memphis,
                              Tennessee, sponsors the AMS. The system resides on a
                              mainframe computer at the San Mateo Host Computing
                              Services in San Mateo, California. The San Mateo
                              Integrated Business Systems Solutions Center staff
                              supports the AMS database.

                              The Manager, Customer Service Operations, sponsors the
                              FDB. The system resides on a mid-range computer at the
                              Eagan Computer Operations Service Center in Eagan,
                              Minnesota. The St. Louis Integrated Business Systems
                              Solutions Center staff supports the database. The
                              Manager, Delivery and Retail Systems Portfolio, provides
                              information technology support for the AMS and the FDB.

                              AMS managers at each Postal Service district, as well as
                              retail specialists and facility service officers, input the data
                              that management later uses to create the FDB facility
                              record. (See Appendix A.) Facility managers and FDB
                              coordinators at the district and field levels are responsible




                                                   1
                                        Restricted Information
Data Integrity Review of Address Management                                                             IS-AR-07-005
 System Facility Data



                                    for validating and certifying facility data. AMS managers
                                    and FDB coordinators work together to ensure facility data
                                    is accurate and complete.

    Objective, Scope, and           The objective of this audit was to determine if the data the
    Methodology                     AMS supplies to the FDB is complete, accurate, and timely.
                                    Additionally, we evaluated whether controls in the FDB are
                                    adequate to properly maintain facility data provided by the
                                    AMS.

                                    During our review, the Postal Service conducted its first
                                    comprehensive nationwide validation and certification of the
                                    accuracy of FDB information. The Postal Service’s
                                    certification effort focused on the accuracy of existing FDB
                                    data and did not emphasize identifying missing facilities.
                                    We monitored the progress of this initiative and evaluated
                                    related discrepancy reports.

                                    We selected five Postal Service organizations to evaluate
                                    controls over how facility information is entered into the
                                    AMS for delivery to the FDB. We selected the Postal
                                    Service’s Law Department, the U.S. Postal Service Office of
                                    Inspector General (OIG), the Postal Inspection Service, and
                                    Vehicle Operations vehicle maintenance facilities (VMF) for
                                    review. Management expressed concerns that some facility
                                    data in the AMS and FDB for these four organizations was
                                    incomplete or inaccurate. For the fifth organization, we
                                    selected Information Technology and evaluated whether
                                    they included all business partners1 in the AMS. We
                                    performed a comparative analysis of an AMS data extract,
                                    dated June 17, 2006, with the source documents we
                                    obtained from all five organizations.2 We reviewed the
                                    accuracy and completeness of all facility names, addresses,
                                    and AMS locale types3 for each of these organizations.

                                    To evaluate system controls over the FDB, we examined
                                    system documentation, observed the features and
                                    functionality of the FDB, and interviewed key project
                                    sponsors and managers for AMS and FDB. We also
                                    interviewed area and district AMS managers and FDB

1
  Information Technology uses the FDB to obtain a facility identification number prior to authorizing a
telecommunications order to connect the business partners to the Postal Service network.
2
  The source documents we obtained included a total of 1,317 facilities for the five organizations we reviewed.
3
  Locales are defined according to the function of the facility.



                                                          2
                                               Restricted Information
Data Integrity Review of Address Management                                        IS-AR-07-005
 System Facility Data



                              coordinators in the Capital Metro, Eastern, and
                              Southeastern Areas.

                              We conducted this audit from March through
                              December 2006 in accordance with generally accepted
                              government auditing standards and included such tests of
                              internal controls as we considered necessary under the
                              circumstances. We used manual and automated
                              techniques to analyze computer-processed data. Based on
                              these tests and assessments, we concluded the data were
                              sufficiently reliable for meeting the objective of our review.
                              We discussed our observations and conclusions with
                              management officials and included their comments where
                              appropriate.

 Prior Audit Coverage         The OIG issued an audit report titled Data Input Validation
                              for the Facilities Database (Report Number IS-AR-06-006,
                              dated March 30, 2006) that examined the accuracy,
                              completeness, and timeliness of data elements in the FDB
                              Products and Services module. We recommended that
                              management: (1) develop a management instruction to
                              document Postal Service’s requirements for maintaining and
                              validating information within the FDB; (2) develop and
                              implement a method of monitoring and enforcing employee
                              compliance with Postal Service requirements for
                              maintaining and validating FDB data; and (3) update the
                              Facilities Database System User Guide to include
                              instructions and requirements for validating and maintaining
                              FDB information. Management agreed with the
                              recommendations. Management has taken corrective
                              action on the second recommendation and has corrective
                              actions in progress for recommendations one and three.

                              Additionally, the OIG issued an audit report titled Facilities
                              Database Application Development Review (Report Number
                              EM-AR-02-003, dated March 26, 2002) that assessed the
                              Postal Service’s FDB development effort in the final stages
                              of the concept phase in the systems development life cycle.
                              We recommended management: (1) complete a feasibility
                              study on the FDB prior to obtaining funding approval;
                              (2) ensure independent software quality assurance
                              functions are performed throughout the FDB project; and




                                                   3
                                        Restricted Information
Data Integrity Review of Address Management                                   IS-AR-07-005
 System Facility Data



                              (3) complete the cost benefit analysis prior to moving
                              forward with a request for funding. Management agreed
                              with the recommendations and completed corrective
                              actions.




                                                   4
                                        Restricted Information
Data Integrity Review of Address Management                                                          IS-AR-07-005
 System Facility Data


                                              AUDIT RESULTS
                                     Facility data extracted from the AMS is provided to the FDB
                                     on a timely basis. The Postal Service’s effort to certify the
                                     accuracy of FDB data has reduced the number of facility
                                     data discrepancies. However, the AMS database does not
                                     contain all Postal Service facilities. While the AMS facility
                                     data we reviewed is generally accurate, FDB facility naming
                                     conventions are not always used when entering facility
                                     names into the AMS. In addition, we identified a small
                                     number of facility locale and address discrepancies for the
                                     organizations we reviewed. Additional guidance, training,
                                     and input and validation controls — supplemented by an
                                     independent quality assurance function — could enhance
                                     the reliability of the facility data.

    Reduction in Facility            Postal Service management informed us that they initiated a
    Data Discrepancies               major effort in March 2005 to update FDB information. This
                                     effort included a comprehensive nationwide review and
                                     certification of FDB data accuracy. We monitored the
                                     progress of reducing discrepant data from January4 through
                                     September 2006 and found the Postal Service significantly
                                     decreased the number of discrepancies, as shown in Table
                                     1 below.

                                         Table 1. Reduction in FDB Facility Data Discrepancies

                                                  Type                       1/02/06       6/26/06   9/18/06
                                      More than One Parent Locale5            1,826          250       235
                                      No Parent Locale                         746           55        31
                                      Mismatched Subtype                       Not            24        17
                                                                             Tracked
                                      No Physical Address                       17            2          1
                                      Records Not Linked                       647           395       226
                                      Free Formed Address                     1,200          558       468
                                      No Facility User                         695           337       230
                                      Incorrect Classification Flag            114            64        36
                                      Incorrect Time Zone                      Not          1,379      247
                                                                             Tracked

                                     Needed changes were either made directly to the FDB or
                                     passed to AMS managers for correction. In addition,
                                     between May and September 2006 the Postal Service
                                     reduced the number of facilities requiring certification from

4
    The Postal Service began tracking the majority of discrepancies in January 2006.
5
    This occurs when one or more records with the same address are all flagged as parent locales.



                                                           5
                                                Restricted Information
Data Integrity Review of Address Management                                      IS-AR-07-005
 System Facility Data


                              over 40,000 to 200. The accuracy of facility information in
                              the FDB depends on the collective and coordinated efforts
                              of many individuals and organizations. (See Appendix A.)




                                                   6
                                        Restricted Information
Data Integrity Review of Address Management                                           IS-AR-07-005
 System Facility Data




 Address Management           We found data discrepancies within AMS that could impact
 System Facility Data         the accuracy of FDB facility data. For example, the AMS
 Discrepancies                does not contain all facility records. To a lesser degree, we
                              also identified incorrect locale types, inconsistencies in
                              facility names, and variances between the addresses in the
                              source records and the AMS for a small number of facilities.

                              Although the Postal Service is making progress in resolving
                              data discrepancies, additional efforts are needed to clarify
                              the definition of a facility, communicate roles and
                              responsibilities, ensure data is entered accurately, ensure
                              only standard facility naming conventions are entered, and
                              provide training to all users who validate and enter data.
                              Management Instruction AS-860-2003-2, Data Stewardship:
                              Data Sharing Roles and Responsibilities, requires that the
                              data steward develop standard definitions for data
                              elements, develop requirements for data collection and
                              maintenance to ensure data is accurate and up-to-date, and
                              develop “data use” guidelines for maximum availability.
                              Incomplete and inaccurate data for those organizations we
                              analyzed could adversely affect environmental operations,
                              emergency preparedness, and Postal Inspection Service
                              security functions.

 Missing Facilities           Integrity tests of facility data for five selected organizations
                              determined that 324 of 1,317 facilities we tested were not
                              included in the AMS. Table 2 provides the number of
                              facilities we identified as missing from the AMS.

                                                    Table 2. Missing Facilities

                                                         Total       Facilities Not In AMS
                                       Entity          Facilities   Number       Percentage
                                Postal Inspection         260         198              76
                                Service
                                OIG                         49          36          73
                                Law Department              15           7          47
                                VMF                        322           6           2
                                Business partners          671          77          11
                                       Totals            1,317         324




                                                   7
                                        Restricted Information
Data Integrity Review of Address Management                                                              IS-AR-07-005
 System Facility Data




                                    Although district AMS managers and FDB coordinators are
                                    diligent in identifying facilities and including them in the
                                    AMS, we noted several reasons why not all facility records
                                    are in the AMS:

                                         •   The Postal Service has different definitions for AMS
                                             facilities6 and FDB facilities.7 Several AMS
                                             managers and FDB coordinators we interviewed
                                             informed us that the definitions were not entirely
                                             clear. Although the FDB facility definition includes
                                             approved organizational units, it was not always clear
                                             to some users when an organizational unit is a
                                             facility, allowing for misinterpretations of data entry
                                             requirements.

                                         •   The Postal Service has not issued a management
                                             instruction documenting roles and requirements for
                                             maintaining and validating facility data. For example,
                                             the OIG and Postal Inspection Service do not have
                                             an appointed liaison to ensure compliance with this
                                             requirement. Further, the Postal Service has not
                                             updated the Facilities Database System User Guide
                                             to document the steps needed to validate and update
                                             data. The Postal Service is scheduled to complete
                                             these documents by December 2006.

                                         •   Not all users received training to properly validate
                                             and update FDB facility data. Responsible parties
                                             who had not received training may not be aware of
                                             their responsibilities for entering facility information.

                                         •   The Postal Service did not ask organizations such as
                                             the Postal Inspection Service, the OIG, and the Law
                                             Department to participate in the FDB certification
                                             effort. Involving these organizations would have
                                             increased the Postal Service’s efforts in ensuring the
                                             completeness of the data.

6
  AMS management defines a facility as “Any building or part of a building where a postal employee works, or any
building or part of a building where a business or individual that has a contract with the United States Postal Service
to provide postal service, such as a contract station or Community Post Office.”
7
  FDB management defines a facility as “An approved organizational unit or real property where employee resources
conduct postal business, Postal assets are deployed, real estate is owned or leased by the Postal Service, or
systems are allowed connection to secure Postal Service information infrastructures.”



                                                          8
                                               Restricted Information
Data Integrity Review of Address Management                                                                IS-AR-07-005
 System Facility Data



                                          •    An independent quality assurance function does not
                                               exist to perform periodic validations of facility data.
                                               An independent quality assurance function would
                                               assist in ensuring that all facilities are entered in the
                                               AMS.

                                      An incomplete list of Postal Service facilities could impact
                                      employee safety and security of facilities. The Postal
                                      Service relies on the FDB data for measuring facility
                                      security needs; preparing for and responding to
                                      emergencies in the event of environmental disasters and
                                      homeland security threats; and for conducting internal
                                      audits of fuel tanks.

    Locale Types                      Locale types were entered into the AMS incorrectly for a
                                      small number of facilities we reviewed. The purpose of the
                                      locale type is to determine:

                                          •    How the FDB classifies facilities.
                                          •    Data fields that must be maintained in the FDB
                                               (updated and/or validated) for each facility type.
                                          •    Which facility records in the FDB are passed to other
                                               systems.

                                      We found eight facilities with incorrect locale types, as
                                      shown in Table 3.

                                                         Table 3. Incorrect Locale Type

                                                                            Number of
                                                        Entity              Facilities8          Number
                                                 Postal Inspection              62                  1
                                                 Service
                                                 OIG                              13                   2
                                                 Law Department                    8                   0
                                                 VMF                             316                   2
                                                 Business partners               594                   3
                                                         Total                   993                   8

                                      Inaccurate locale types in the AMS result in incorrect
                                      classification of facilities in the FDB. Consequently, FDB
                                      users have to maintain data fields that are not applicable to
                                      their facility. For example, if a VMF is improperly classified

8
    As of June 17, 2006, the AMS database contained 993 of 1,317 facilities for the five organizations we reviewed.



                                                            9
                                                 Restricted Information
Data Integrity Review of Address Management                                           IS-AR-07-005
 System Facility Data


                              as a station, the manager would need to input data relevant
                              to a station such as dock and ramp, post office box, and
                              products and services to meet the certification requirement.

 Facility Naming              During our review, we compared source records with the
 Conventions                  AMS and identified facilities that were inconsistently named.
                              Table 4 provides the number of such facilities.

                                              Table 4. Inconsistent Facility Names

                                                                 Number of
                                               Entity            Facilities   Number
                                        Postal Inspection            62         45
                                        Service
                                        OIG                          13          10
                                        Law Department                8           2
                                        VMF                         316         131
                                        Business partners           594         109
                                                Total               993         297

                              FDB management has not designated a standard naming
                              convention for use by AMS personnel when entering official
                              facility names. While the FDB provides suggestions on
                              naming conventions for entering official facility names, this
                              guidance is only available through the on-line help system.
                              The Facilities Database System User Guide did not include
                              this guidance, so it needs to be updated. Since the Postal
                              Service does not have an official FDB training program,
                              AMS managers may not have been aware of the suggested
                              naming convention. In addition, the AMS does not have a
                              control to ensure that only the designated naming
                              convention is entered.

                              As use of the FDB expands, the use of a standard naming
                              convention is of increased importance. Inconsistent facility
                              names could result in incorrect queries that the user or the
                              customer does not recognize. Inconsistent facility names
                              provided to the public could direct customers to the wrong
                              location, affecting goodwill or the Postal Service brand.




                                                  10
                                        Restricted Information
Data Integrity Review of Address Management                                          IS-AR-07-005
 System Facility Data



 Address Discrepancies        We also identified physical facility addresses in AMS that
                              differed from the source records FDB organizations
                              provided us. Table 5 provides the number of such facilities.

                                              Table 5. Address Discrepancies

                                                                 Number of
                                                Entity           Facilities   Number
                                        Postal Inspection           62          24
                                        Service
                                        OIG                         13           1
                                        Law Department               8           0
                                        VMF                        316          39
                                        Business partners          594          86
                                                Total              993         150

                              When evaluating addresses that did not match, we did not
                              make an assessment as to which address was accurate or
                              inaccurate, but identified them as “discrepant.” For
                              example, we identified a VMF in the AMS with a street
                              address of “201 North Wood Avenue,” whereas the source
                              record provided us specifies the address as “210 North
                              Seminary Street.” A discrepancy in an address could mean
                              that the address in the AMS is incorrect. If this occurs,
                              Postal Service Environmental Operations, for example, may
                              not be able to perform an internal audit on a fuel tank they
                              cannot locate. Furthermore, incorrect facility addresses
                              provided to the public could direct customers to the wrong
                              location. This could affect goodwill or the Postal Service
                              brand.

 Facility Database Post       We also noted that management had not conducted a post-
 Implementation Review        implementation review for the FDB. According to the Postal
                              Service’s Integrated Solutions Methodology, this is an
                              essential component of the benefits management process.
                              The review confirms whether the Postal Service has
                              achieved the benefits, including those agreed to in the
                              business case, and identifies opportunities for future
                              improvements. A post-implementation review would help
                              the Postal Service ensure that the FDB meets the needs of
                              its users and customers.




                                                  11
                                        Restricted Information
Data Integrity Review of Address Management                                         IS-AR-07-005
 System Facility Data



 Improvements to              During our review, management made several system
 Facility Database and        enhancements to increase FDB utility, including increased
 Address Management           use of drop-down boxes, enhanced data element
 System                       descriptions, and a control to prevent users from certifying
                              incomplete data in the products and services module.
                              Management also corrected system defects relating to “Bulk
                              Mail Acceptance” and “Drop Ship Receiving Times.”

                              In addition, the audit team provided management with the
                              list of discrepancies and anomalies we identified in the
                              AMS.

 Recommendation               We recommend the Acting Vice President, Delivery and
                              Retail, direct the Manager, Customer Service Operations,
                              to:

                              1. Create and distribute a clear and descriptive definition of
                                 “facility” in the management instruction and Facilities
                                 Database System User Guide.

 Management’s                 Management agreed with the recommendation and stated
 Comments                     they will include the definition in the Management Instruction
                              and the Facilities Database System User Guide they plan to
                              publish by December 31, 2006.

 Recommendation               2. Update the management instruction to clearly define the
                                 roles and responsibilities of all users who input,
                                 maintain, and certify facility data. This includes the
                                 Office of Inspector General, the Postal Inspection
                                 Service, the Law Department, Vehicle Operations, and
                                 Information Technology.

 Management’s                 Management agreed with the recommendation and stated
 Comments                     they will clearly define the roles and responsibilities of
                              stakeholders who input, maintain, and certify facility data in
                              the new Management Instruction they plan to publish in
                              December 2006.

 Recommendation               3. Form an independent quality assurance team to
                                 periodically validate facility data added to the Facilities
                                 Database.




                                                  12
                                        Restricted Information
Data Integrity Review of Address Management                                       IS-AR-07-005
 System Facility Data



 Management’s                 Management agreed with the recommendation and stated
 Comments                     the Facilities Database Advisory Committee will develop a
                              periodic validation of facility data in conjunction with AMS
                              Quality Reviews. Management has scheduled completion
                              of corrective actions for September 2007.

 Recommendation               4. Create a standard facility naming convention for the
                                 Facilities Database and inform applicable Postal Service
                                 personnel.

 Management’s                 Management agreed with the recommendation and non-
 Comments                     monetary benefit. AMS management agreed they are
                              responsible for both developing and implementing this
                              policy. Facilities Database and AMS management will
                              coordinate to determine a naming convention policy for new
                              facilities. Management also stated the recommendation has
                              no direct quantifiable dollar impact; however, the
                              recommendation can improve customer satisfaction and
                              negate potential brand impact. Management has scheduled
                              completion of corrective actions for September 2007.

 Recommendation               5. Develop and implement an enhanced training program
                                 to provide Address Management System managers and
                                 Facilities Database coordinators with the knowledge of
                                 how to properly enter and maintain facility data.

 Management’s                 Management agreed with the recommendation and non-
 Comments                     monetary impact. Management stated they have developed
                              a training program for Facilities Database Coordinators and
                              will implement it during fiscal year (FY) 2007. They have
                              also developed a Facilities Database System User Guide for
                              all FDB users, including retail specialists and field users.
                              This guide should serve as the primary source of training
                              and reference. Additionally, AMS Coordinators received
                              FDB training at the AMS conference in Memphis,
                              Tennessee, in August 2006. Management has scheduled
                              completion of corrective actions for June 2007.




                                                  13
                                        Restricted Information
Data Integrity Review of Address Management                                       IS-AR-07-005
 System Facility Data



                              Management also stated they agree that training initiatives
                              for the Facilities Database could indirectly improve customer
                              satisfaction and negate potential brand impact; however,
                              there would be monetary costs for training, travel, and
                              materials.

 Recommendation               6. Complete the post-implementation review for the
                                 Facilities Database.

 Management’s                 Management agreed with the recommendation and stated
 Comments                     they will complete the post-implementation review for the
                              Facilities Database based on the Facilities Database
                              Roadmap they developed in FY 2005 during the transition of
                              the Facilities Database to Delivery and Retail. Management
                              has scheduled completion of corrective actions for June
                              2007.

 Recommendation               We recommend the Senior Vice President, Intelligent Mail
                              and Address Quality, direct the Manager, Address
                              Management System, to:

                              7. Coordinate with the Manager, Customer Service
                                 Operations, to implement a control to ensure that only
                                 the standard facility naming convention is used when
                                 entering facility names into the Address Management
                                 System.

 Management’s                 Management agreed with the recommendation and non-
 Comments                     monetary benefit. AMS management has reaffirmed its
                              commitment to improve its standard facility naming
                              convention and will coordinate with the Manager, Customer
                              Service Operations, to: (1) establish a standard facility
                              naming convention to be used across the AMS and
                              Facilities Database; (2) provide job aids and training to AMS
                              and Facilities Database field managers and their staffs
                              regarding naming convention standards; and
                              (3) develop a control that will periodically check the AMS for
                              names that do not meet the naming convention standards.

                              Management also stated the establishment of a standard
                              facility naming convention through field education and job
                              aids and training — along with periodic data integrity checks
                              regarding such standards — should minimize the negative
                              impact on users, including customers.


                                                  14
                                        Restricted Information
Data Integrity Review of Address Management                                   IS-AR-07-005
 System Facility Data




 Evaluation of                Management’s actions taken or planned are responsive to
 Management’s                 all the recommendations and should correct the issues
 Comments                     identified in the findings.




                                                  15
                                        Restricted Information
Data Integrity Review of Address Management                                                                          IS-AR-07-005
 System Facility Data



                             APPENDIX A. FACILITY DATA FLOW

The AMS managers in the Postal Service districts are responsible for entering the
facility’s data (such as its name, address, and phone number) into the AMS. A locale
file, containing facility data such as facility names, addresses, locale types, and phone
numbers, is extracted from AMS on a weekly basis and the data is placed into a staging
file in the FDB.

                                      Figure 1. Origin of Facility Records
                                                   Legend: See page 17.


                                                                                                                 Address
                                                                                                                Management
                                                                                                                  System
                                                                                               Entered into
                                                                                                  AMS


                                                                                                                    (AMS)



  AMS Manager                                                                                                    Imported into FDB


                                                          Non-Postal
                               Postal Facilities           Facilities



                                                                                                                            FacLink
                                                                                                Entered
                                                                                              directly into
                                                                                                  FDB



    Retail                              Contract Postal Units (CPU)                                                        FDB
   Specialist



                                                                                                                 Imported into FDB


                                                              Warehouses
                                                                                               Entered into
     Facilities           Real Property
                                                                                                FMSWin

   Service Officer                             Parking Lots
                                                                           Radio Towers
                                                                                                                    Facility
                                                                                                                Management
                                                                                                              System - Windows
   Note: FDB coordinators do not initiate facility records. They have administrative responsibilities.            (FMSWin)
         The FacLink utility, inside of FDB, is used by AMS managers to create facility records.




                                                             16
                                                   Restricted Information
Data Integrity Review of Address Management                                      IS-AR-07-005
 System Facility Data




Postal Service retail specialists are responsible for entering contract postal unit data
directly into the FDB. Facility Service Officers enter real estate data into the Facility
Management System – Windows (FMSWin), and this real estate data is sent daily to a
staging file in the FDB.

General users cannot view staging data within the FDB until an AMS manager initiates
and completes the FacLink process. The FacLink process is the synchronization of
data in the AMS locale file record with the real estate data in the FDB, resulting in a new
facility record in the FDB. This occurs when the AMS manager in the district manually
links a facility’s address from the AMS locale file to the facility’s building record in the
FDB. Figure 2 shows additional information on facility data flow among organizations.




                                                  17
                                        Restricted Information
Data Integrity Review of Address Management                      IS-AR-07-005
 System Facility Data




                                      Redacted




                                                  18
                                        Restricted Information
Data Integrity Review of Address Management                      IS-AR-07-005
 System Facility Data




                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                  19
                                        Restricted Information
Data Integrity Review of Address Management                      IS-AR-07-005
 System Facility Data




                                                  20
                                        Restricted Information
Data Integrity Review of Address Management                      IS-AR-07-005
 System Facility Data




                                                  21
                                        Restricted Information
